      Department of Homeland Security




      Management Letter for U.S. Customs and Border
        Protection’s FY 2011 Consolidated Financial
                          Statements




OIG-12-69                                      March 2012
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                              MAR 28 2012

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the management letter for U.S. Customs and Border Protection’s
(CBP) fiscal year (FY) 2011 consolidated financial statements audit. It contains
observations related to internal controls that were not required to be reported in the
Independent Auditors’ Report on the financial statements. The independent public
accounting firm KPMG LLP (KPMG) conducted the audit of CBP’s FY 2011 financial
statements and prepared this management letter. Material weaknesses and other
significant deficiencies were reported, as required, in KPMG’s Independent Auditors’
Report, dated January 27, 2012. KPMG is responsible for the attached management letter
dated March 14, 2012, and the conclusions expressed in it. We do not express opinions
on CBP’s financial statements or internal control, or provide conclusions on compliance
with laws and regulations.

The observations herein have been discussed in draft with management officials. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




March 14, 2012


Office of Inspector General and Chief Financial Officer,
U.S. Department of Homeland Security,
Washington, DC


Chief Financial Officer,
U.S. Customs and Border Protection

Ladies and Gentlemen:

We have audited the consolidated balance sheets of the U.S. Customs and Border Protection
(CBP), a Component of the U.S. Department of Homeland Security (DHS), as of September 30,
2011 and 2010, and the related consolidated statements of net cost, changes in net position, and
custodial activity, and the combined statements of budgetary resources (hereinafter, referred to as
“consolidated financial statements”) for the years then ended. In planning and performing our
audit of CBP’s consolidated financial statements, we considered CBP’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing our
opinion on the consolidated financial statements.

In connection with our fiscal year (FY) 2011 engagement, we considered CBP’s internal control
over financial reporting by obtaining an understanding of CBP’s internal controls, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests
of controls in order to determine our procedures. We limited our internal control testing to those
controls necessary to achieve the objectives described in Government Auditing Standards and the
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our engagement was not to provide an opinion on the effectiveness of CBP’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
CBP’s internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
We noted certain matters involving internal control and other operational matters that are listed on
page one in the Table of Financial Management Comments, and are presented for your
consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other
operating efficiencies. These comments are in addition to the significant deficiencies and
material weakness presented in our Independent Auditors’ Report, dated January 27, 2012,
included in CBP’s Fiscal Year 2011 Performance and Accountability Report. A description of
each internal control finding, and its disposition, as either a material weakness, significant
deficiency, or a financial management comment, is provided in Appendix A. Our findings related
to information technology systems have been presented in a separate letter to the Office of
Inspector General and the DHS Chief Information Officer.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS and CBP management, the DHS
Office of Inspector General, the OMB, the U.S. Congress, and the Government Accountability
Office, and is not intended to be and should not be used by anyone other than these specified
parties.

Very truly yours,
                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2011




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)
Comment
Reference   Subject                                                                         Page
FMC 11-01   Certification of Refund and Drawback Payments                                   2

FMC 11-02   Automated Commercial System Deficiency over the Accumulation of Accelerated     2

            Payments Against a Drawback Bond

FMC 11-03   Lack of Controls over Timely Processing of Goods and Services Received          2

FMC 11-04   Weaknesses in the Monitoring and Review Process over Fines, Penalties, and      3

            Forfeiture (FP&F) Cases

FMC 11-05   Lack of Implementation of Controls over Determining Classification of Leases    3

FMC 11-06   Weaknesses in the Review of Weekly Entry Edit / Exception Reports               4

FMC 11-07   Lack of Evidence of Review of the Drawback Auto / Deemed Liquidation (D28)      4

            Alert Report

FMC 11-08   Deficiencies in the Public Financial Disclosure Reporting Process               5

FMC 11-09   Deficiencies in the Performance Management Program                              5

FMC 11-10   Weaknesses in Controls over Automated Journal Entries                           5

FMC 11-11   Weaknesses in Controls over the Bond Sufficiency Review Process                 6

FMC 11-12   Incorrect use of CBP Overtime Scheduling System (COSS) Codes                    6

FMC 11-13   Lack of Formal Process for Determining Required Supervisory Reviews             6

FMC 11-14   Deficiencies over Monitoring of Ethics Requirements                             7

FMC 11-15   Incomplete Undelivered Orders (UDO) Quarterly Review                            7

FMC 11-16   Untimely Deobligation of UDOs and Monitoring of Period of Performance           7

FMC 11-17   Weaknesses in CBP's Payroll Reconciliation Process                              8

FMC 11-18   Insufficient Review of Manual Journal Entries                                   8

FMC 11-19   Deficiencies in the Review of the Department of Labor (DOL) Chargeback Report   9


APPENDICES
Appendix    Subject                                                                         Page
A           Crosswalk – Financial Management Comments to Active NFRs                        10

B           Status of Prior Year Findings                                                   12

C           Management Response to the Draft Management Letter                              15





                                                    1

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2011




FMC 11-01: Certification of Refund and Drawback Payments (NFR No. CBP-11-01)

      In the event that the Chief / Supervisor does not certify a payment, the Automated Commercial 

      System (ACS) is defaulted to automatically indicate that the Port Director certified a given 

      payment, without the Port Director’s actual certification. CBP has designed and implemented a 

      mitigating control to manually review, verify, and certify payments on the Check Proof Listing;

      however, this control is not codified in the Standard Operating Procedures.


      Recommendation:

      Publish the ACS Refund Certification Procedures, which will provide guidance to the field to 

      ensure all necessary verifications are completed prior to issuance of a payment.


FMC 11-02: Automated Commercial System Deficiency over the Accumulation of
Accelerated Payments Against a Drawback Bond (NFR No. CBP-11-03)

      ACS does not properly account for bond sufficiency of claims that involve a continuous bond. 

      Specifically, the automated control that prevents a claimant from exceeding the bond amount on 

      file is not operating effectively. As a result, CBP will not have sufficient surety against a 

      drawback over claim. Additionally, manual procedures are not in place to ensure the sufficiency 

      of bonds.


      ACS remains the system of record for drawback claims and bonds. In FY 2011, there has not 

      been a program change within ACS or a manual procedure put in place to ensure the sufficiency 

      of bonds.


      Recommendation:

      Develop a compensating control that will address this noted system deficiency to ensure the 

      Agency’s financial risk exposure is minimized.


FMC 11-03: Lack of Controls over Timely Processing of Goods and Services Received
(NFR Nos. CBP-11-10 and CBP-11-10b)

      During FY 2011, we reviewed statistical samples totaling 641 operating expense type
      transactions. In 54 transactions, the receipt of goods or services was not recorded in the proper
      period.

      Contracting Officer’s Technical Representatives (COTRs) and goods receivers did not
      consistently enter goods receipts and service entry sheets timely into Systems, Applications and
      Products (SAP), CBP’s financial reporting system. As a result, at year end, CBP must estimate
      accounts payable for goods or services received, but not entered into SAP. Although this
      estimation process is typically accurate, as evidenced by the search for unrecorded liabilities
      performed by CBP at the beginning of each fiscal year, CBP lacks controls over the process of
      recording the receipt of goods and services timely throughout the year.

      In order to capture goods receipt and service entries not entered timely, CBP uses both workflow
      messages and an on-demand SAP “parked invoice” report available to all receiving officials. A

                                                   2

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2011



      workflow message is sent to the goods receiver when an invoice is input into SAP without a
      corresponding goods receipt. In addition, if this message is not addressed within five days, a
      subsequent message is sent to a budget official. CBP’s Commercial Accounts Section works the
      “parked invoice” report weekly and corresponds with program offices to resolve open items. In
      addition, CBP headquarters program level officers are provided the “parked invoice” report on a
      monthly basis, which allows them to monitor the items outstanding for their program office.
      These officials are responsible for distributing the report to their subordinate offices for action
      and implementing varying levels of review procedures to ensure items are resolved. However,
      these procedures are not performed until after the receipt of an invoice, which is typically after
      the receipt of goods or services.

      Recommendations:
         1.	 Continue outreach efforts that provide guidance to receiving officials through conference
             call, newsletters, etc.
         2.	 Monitor the results of the annual Self Inspection worksheets to determine additional
             training needs.
         3.	 Provide program offices with tools to monitor receiving progress, which include:
                  •	 Monthly “Parked Invoice” Report
                  •	 Weekly review of parked invoices by the National Finance Center (NFC)
         4.	 Issue guidance targeted at Contracting Officers (CO) and COTRs that includes the timely
             receipt, testing and acceptance of supplies and services.
         5.	 Develop a strategy to communicate the implementation of the guidance to individuals
             responsible for the timely receipt of supplies and services.

FMC 11-04: Weaknesses in the Monitoring and Review Process over Fines, Penalties, and
Forfeiture (FP&F) Cases (NFR No. CBP-11-11)

      For 2 of the 11 selected Ports of Entry, the FP&F Office was unable to provide evidence that the
      F05, Action Due Report, was generated and reviewed for the weeks selected for testing.
      •	 At one location, the port was unable to provide copies of the F05 report for one of the two
          weeks selected for testwork.
      •	 At one location, the port was unable to provide copies of the F05 report for the two weeks
          selected for testwork.

      Recommendation:

      Utilize the auto distribution mechanism created by the Fines, Penalties and Forfeitures Division to

      distribute, via email, individualized F05 Action Due Reports on a weekly basis to each respective 

      FP&F officer to review and monitor cases, and track cases nearing the statute of limitations. 


FMC 11-05: Lack of Implementation of Controls over Determining Classification of Leases
(NFR No. CBP-11-12)

      CBP does not have a formal requirement to retain documentation to support the evaluation of all
      leases as operating or capital. Therefore, there is no clear auditable documentation evidencing
      how CBP determines if a lease should be classified as capital or operating for all lease types.


                                                   3

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2011



      Recommendations:
      It is recommended that the Office of Administration (OA)-Asset and Administrative Management
      Division (AAMD) work in conjunction with OA-Financial Operations, OA-Procurement, and the
      NFC in the development of materials, such as the personal property leasehold classification
      checklist (currently being worked on through the NFC). Additionally, OA-AAMD should work
      with OA-Financial Operations, OA-Procurement, and the NFC to develop processes and
      procedures to require documents (such as leasehold agreements, and the classification checklist)
      to be uploaded into SAP.

FMC 11-06: Weaknesses in the Review of Weekly Entry Edit / Exception Reports (NFR
No. CBP-11-13)

      During testwork performed at 11 statistically selected Ports of Entry, the following instances of
      non-compliance with CBP Directive 5610-006A, Entry Deletion and Entry or Entry Summary
      Cancellation, and CBP Directive 5610-004B, Resolving Certain ACS Exception and Error
      Reports, were noted:
      •	 Evidence that the issues on the reports were resolved according to the applicable Directive
              could not be verified for the following:
              a.      B06, ACS List of Rejected/Cancelled Entries Report, at one port.
              b.      S21, Cargo Selectivity Weekly Selectivity Delete Report, at one port.
      •	 Proper segregation of duties could not be confirmed at one port related to the review of
              deleted entries on the S21 Report.

      Recommendations:
      1.	 Reinforce the importance of the requirements of CBP Directive 5610-004B, published
          September 24, 2009, through written communications and, if necessary, targeted efforts at
          noncompliant ports to ensure that the B06 report is being reviewed in accordance with
          established policy.
      2.	 Reinforce the importance of the requirements of CBP Directive 5610-006A, published June
          10, 2011, through written communications and, if necessary, providing targeted training to
          ensure that the S21 is properly reviewed and verified by the appropriate CBP officials.

FMC 11-07: Lack of Evidence of Review of the Drawback Auto / Deemed Liquidation
(D28) Alert Report (NFR No. CBP-11-14)

      During testing at the drawback centers, a sample of 30 D28 Alert Reports was selected across all 

      four centers for review. Eight instances were identified in which evidence of review of the D28 

      Alert Reports could not be verified. 


      Recommendation:

      Update the drawback policy with more specific guidance on how to review and resolve items on 

      the D28 report. Reinforce the importance of reviewing the D28 report by issuing written 

      communications to each of the drawback centers.





                                                   4

                                 Department of Homeland Security
                                U.S. Customs and Border Protection
                                 Financial Management Comments
                                       September 30, 2011




FMC 11-08: Deficiencies in the Public Financial Disclosure Reporting Process (NFR No.
CBP-11-17)

      During testwork over a sample of 45 employees who filed SF-278, Executive Branch Personnel
      Public Financial Disclosure Reports, in FY 2011, the following deficiencies were identified:
      •	 Three incumbent employees did not file SF-278’s by the June 15, 2011 extended deadline or
          the employee’s further extension, if granted.
      •	 One new employee did not file the SF-278 within 30 days of their date of hire.
      •	 Evidence of completion for one employee’s SF-278 was unable to be provided.
      •	 Nineteen of the SF-278’s were not reviewed within 60 days of the date of filing.

      Recommendations:

      Ensure all employees who need access to Financial Disclosure Management (FDM) are granted 

      proper access prior to the FY 2012 filing date. In addition, ensure that FDM is properly

      implemented to facilitate timely review of the SF-278’s.


FMC 11-09: Deficiencies in the Performance Management Program (NFR No. CBP-11-18)

      During testwork over a sample of 45 Senior Executive Service (SES) performance plans, the
      following deficiency was identified:
      •	 One employee did not complete an initial or a progress review.

      During testwork over a sample of 45 non-SES supervisory employee performance and appraisal
      plans, the following deficiencies were identified:
      •	 Evidence of completion for one employee’s performance and appraisal plan was not received
         at the time of testwork.
      •	 Evidence of completion for two employees’ goal setting sections of the performance and
         appraisal plans were not received at the time of testwork.
      •	 One employee’s mid-year review meeting did not occur and a reasonable explanation was not
         provided.
      •	 One employee did not complete meetings at goal setting or mid-year due to an extended
         detail.
      •	 One employee did not complete a mid-year review due to an extended detail.
      •	 One employee did not complete goal setting timely due to an extended detail.

      Recommendations:
      1.	 Issue a reminder to managers and employees to follow current policies and procedures when
          conducting the performance management process.
      2.	 Review current policies and develop new policies, as necessary, over the performance
          management process, including procedures for employees on extended detail.

FMC 11-10: Weaknesses in Controls over Automated Journal Entries (NFR No. CBP-11­
19)
      In FY 2011, CBP developed standard operating procedures (SOPs) for submitting SAP Change
      Requests and reviewing SAP automated general ledger postings. However, the SOPs are not

                                                 5

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2011



      adequately designed to determine whether all types of posting changes are successfully
      implemented.

      Additionally, at the time of testing, evidence of review and approval of the SAP posting logic
      change made in FY 2011 was not available.

      Recommendation:
      Revise operating procedures to expand documentation requirements confirming that posting logic
      changes are correctly made to SAP along with a standard approval process.

FMC 11-11: Weaknesses in Controls over the Bond Sufficiency Review Process (NFR No.
CBP-11-20)

      During testwork performed over the bond sufficiency process, we identified one insufficient bond 

      on the Bond Sufficiency Report for the month of July 2011 that remained “valid” in ACS and an 

      insufficient bond letter was never sent to the importer.


      Recommendation:

      The Bond Team should compare importer numbers instead of importer names when checking for 

      duplications.


FMC 11-12: Incorrect use of CBP Overtime Scheduling System (COSS) Codes (NFR No.
CBP-11-21)

      During testing performed over a sample of 33 CBP Officer timecards, the COSS codes used by
      three CBP Officers did not correspond to the duties performed by the CBP Officer on the selected
      day.

      Recommendations:
      Review current policies to determine effectiveness and revise policies as necessary. Increase
      communication and training to ensure employees have an appropriate understanding of the use of
      COSS codes in relationship to their responsibilities. Additionally, ensure proper codes are in
      place when employees change roles.

FMC 11-13: Lack of Formal Process for Determining Required Supervisory Reviews (NFR
No. CBP-11-22)

      CBP lacks a formal process to identify all drawback claims requiring supervisory review. 

      Specifically, there is no formal report or list of all claims requiring supervisory review and, 

      therefore, supervisors must rely on Drawback Specialists to properly flag claims requiring review. 

      Additionally, CBP cannot determine if all required supervisory reviews have been completed.


      Recommendation:

      Until a fully automated system is in place to process claims electronically, develop procedures to 

      ensure completeness over supervisory reviews. 



                                                   6

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2011




FMC 11-14: Deficiencies over Monitoring of Ethics Requirements (NFR No. CBP-11-23)

      During testwork over a sample of 45 new employees in FY 2011, evidence of completion for
      ethics training related to 17 employees was not provided in a timely manner; therefore, we were
      unable to perform testwork over these sample items.

      During testwork over a sample of 45 public filer and covered employees, evidence of completion
      for ethics training related to one employee was not provided in a timely manner; therefore, we
      were unable to perform testwork over this sample item.

      Recommendations:
      1.	 Develop a centralized tracking system to ensure employees are complying with ethics
          requirements.
      2.	 Develop a document retention policy to ensure evidence of completion of ethics training is
          readily available.

FMC 11-15: Incomplete Undelivered Orders (UDO) Quarterly Review (NFR No. CBP-11­
24)

      During testing performed over the June quarterly UDO certifications, the following deficiencies
      were identified:
      •	 Two certifications were not submitted to the NFC to signify a review was completed and no
         follow-up was performed;
      •	 Two certifications were submitted after the 21 day period;
      •	 Eight certifications incorrectly referenced the directive used to perform the review and/or did
         not reflect the correct review period per Directive 1220-011D, Reviews of Unliquidated
         Obligations and Open Goods / Services Receiving Records; and
      •	 Three certifications were submitted prior to the end of the third quarter without an explanation
         as to why the early submission was appropriate.

      Recommendation:

      Coordinate with program offices to ensure timely and accurate submission of the quarterly UDO 

      certifications.


FMC 11-16: Untimely Deobligation of UDOs and Monitoring of Period of Performance
(NFR No. CBP-11-28)

      During our testwork over CBP’s UDO balance as of August 31, 2011 and September 30, 2011, we
      selected statistical samples totaling 455 UDOs and noted weaknesses in CBP’s monitoring of
      these obligations. Specifically, we noted the following:

      •	 11 UDOs were no longer valid and had not been deobligated, or marked for deobligation,
         totaling $1.2 million. CBP did not reconcile these UDOs to supporting documentation (e.g.,
         certifications) and reasonably assure that only valid obligations remained open.
      •	 For three purchase order agreements, the period of performance had expired prior to the
         execution of a modification, for up to a period of four months.

                                                   7

                                 Department of Homeland Security
                                U.S. Customs and Border Protection
                                 Financial Management Comments
                                       September 30, 2011




      •	 For two purchase order agreements, the period of performance expired (in September 2010
         and April 2011) and it was confirmed that more goods or services were expected to be
         received on these agreements. However, no modification has been executed on these
         agreements as of September 30, 2011 to extend the period of performance.
      •	 For one interagency agreement and one purchase order, goods and/or services were accepted
         prior to the execution of the contract. Thus, the period of performance was back-dated in
         order to accept the invoices for the good/services.

      Recommendations:
      1.	 Follow-up with offices cited on the report as not being in compliance with CBP Directive
          1220-011D, Reviews of Unliquidated Obligations and Open Goods / Services Receiving
          Records. Emphasize better communication between the COTR, the program office and the
          CO.
      2.	 Improve monitoring of the period of performance, especially the end date, on active contract
          actions to avoid elapse of time and ensure SAP is updated with the current period of
          performance end date.
      3.	 Improve monitoring of the period of performance, especially the end date, on active contract
          actions to avoid delays in awarding the renewal contract actions and ensure SAP is updated
          with the current period of performance end date.

FMC 11-17: Weaknesses in CBP's Payroll Reconciliation Process (NFR No. CBP-11-30)

      CBP did not perform a proper reconciliation between the U.S. Department of Agriculture (USDA)

      Abstract and the Governmentwide Accounting and Reporting Program (GWA) Account

      Statement. On the USDA Abstract to GWA Account Statement Comparison Worksheet, CBP 

      populates amounts from the USDA Abstract in one column and amounts from the GWA Account 

      Statement in a separate column for comparison. CBP properly utilized the USDA Abstract to 

      populate amounts in the USDA Abstract column. However, when populating amounts in the

      GWA Account Statement column, CBP erroneously utilized the USDA Abstract instead of the 

      GWA Account Statement. Therefore, CBP did not compare the USDA Abstract to the GWA 

      Account Statement. CBP confirmed that the condition existed for the entire FY 2011. 


      Recommendation:

      Include the GWA reports in the monthly payroll reconciliation to ensure no reconciling items 

      exist. 


FMC 11-18: Insufficient Review of Manual Journal Entries (NFR No. CBP-11-31)

      Insufficient review was performed over the following Adjusting Journal Entries (AJE) and related
      supporting documentation, and as a result errors were not identified during the AJE review:

      The AJE to record the year-end refunds payable accrual improperly credited Standard General
      Ledger (SGL) 2990, Other Liabilities without Related Budgetary Obligations, rather than
      crediting SGL 2190, Other Liabilities with Related Budgetary Obligations. Furthermore, a
      mathematical error existed in the calculation of the adjustment causing the accrual to be
      understated by approximately $1.9 million.

                                                  8

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2011




      The AJE to record the fourth quarter imputed pension costs excluded the payroll information for
      pay periods 13 through 18, which resulted in the imputed cost being understated by
      approximately $35 million.

      Recommendations:
      1.	 Revise the SOP to include a new validation of the prior-year refunds payable calculations,
          which will impact current year calculations. This validation will be reviewed by the 1st and
          2nd level AJE reviewers. In addition, the work-papers for this AJE will be revised to include
          the correct debit/credit general ledger accounts.
      2.	 For the pension calculation, CBP added work-paper support and a spreadsheet validation to
          avoid this error in the future.

FMC 11-19: Deficiencies in the Review of the Department of Labor (DOL) Chargeback
Report (NFR No. CBP-11-32)

      CBP’s Human Resource Management (HRM) – Workers’ Compensation Program Office
      (WCPO) does not perform a review of the Detailed Chargeback Report on a quarterly basis.
      Rather, a review of significant payments is performed every 24 months.

      Recommendations:
      1.	 Finalize the amended CBP Directive No. 51810-005, Workers’ Compensation Program,
          which includes verbiage that provides HRM – Benefits, Medical and Worklife Division
          (BM&W) the leverage to develop CBP’s processes for monitoring of the chargeback to ensure
          accuracy.
      2.	 Continue the efforts of the BM&W in developing a process to review and distribute the
          chargeback report on a quarterly basis. A Senior Advisor will lead the efforts as the initial
          contact lead to interface and achieve collaboration and buy-in for the quarterly review of
          CBP’s Chargeback.
      3.	 Develop SOPs and conduct training on how to read the Chargeback and conduct the
          Chargeback review.




                                                   9

                                                                                                Appendix A
                              U.S. Customs and Border Protection
                  Crosswalk – Financial Management Comments to Active NFRs
                                      September 30, 2011




                                                                           Disposition*
                                                            Independent Auditors’ Report        FMC
  NFR                                                     Material Significant      Non-
                            Description
 Number                                                   Weakness Deficiency Compliance       Number
             Certification of Refund and Drawback
CBP-11-01
             Payments
                                                                                               11-01
             Insufficient Retention Period for
CBP-11-02                                                    A
             Documents that Support Drawback Claims
             Automated Commercial System (ACS)
             Deficiency over the Accumulation of
CBP-11-03
             Accelerated Payments Against a Drawback
                                                                                               11-02
             Bond
             ACS Limitations – Review of Prior
CBP-11-04    Related Drawback Claims and Selectivity         A
             for Underlying Consumption Entries
                                                                                Compliance
             ACS Deficiencies over Non-Entity
                                                                               Determined at
CBP-11-05    Accounts Receivable and CBP’s Ability to
                                                                                Department
             Effectively Monitor Collection Actions
                                                                                   Level
             Lack of System Integration and
                                                                                Compliance
             Compliance with the U.S. Standard
                                                                               Determined at
CBP-11-06    General Ledger (USSGL) at the
                                                                                Department
             Transaction Level Related to Inventory and
                                                                                   Level
             Related Property, Net
             Weaknesses in CBP's Process Related to
             Asset Additions and Classification of
CBP-11-07                                                              B
             Property, Plant, and Equipment (PP&E)
             Related Transactions as of 4/30/2011
             Weaknesses in CBP's Process Related to
             Asset Additions and Classification of
CBP-11-07b                                                             B
             PP&E Related Transactions as of
             7/31/2011 and 9/30/2011
             Improper Settlement of Assets, Including
             Untimely Capitalization of Assets from
CBP-11-08                                                              B
             Construction in Progress (CIP) as of
             4/30/2011
             Improper Settlement of Assets, Including
CBP-11-08b   Untimely Capitalization of Assets from                    B
             CIP as of 7/31/2011 and 9/30/2011
             Weaknesses in CBP's Process Related to
CBP-11-09                                                              B
             Asset Disposals as of 4/30/2011
             Weaknesses in CBP's Process Related to
CBP-11-09b   Asset Disposals as of 7/31/2011 and                       B
             9/30/2011
             Lack of Controls over Timely Processing
CBP-11-10    of Goods and Services Received as of                                              11-03
             3/31/2011
             Lack of Controls over Timely Processing
CBP-11-10b   of Goods and Services Received as of                                              11-03
             7/31/2011 and 9/30/2011
             Weaknesses in the Monitoring and Review
CBP-11-11    Process over Fines, Penalties, and                                                11-04
             Forfeiture (FP&F) Cases
             Lack of Implementation of Controls over
CBP-11-12
             Determining Classification of Leases
                                                                                               11-05


                                                      10

                                                                                                       Appendix A
                                      U.S. Customs and Border Protection
                          Crosswalk – Financial Management Comments to Active NFRs
                                              September 30, 2011




                                                                                       Disposition*
                                                                      Independent Auditors’ Report     FMC
         NFR                                                        Material Significant      Non-
                                    Description
        Number                                                      Weakness Deficiency Compliance    Number
                    Weaknesses in the Review of Weekly
      CBP-11-13
                    Entry Edit / Exception Reports
                                                                                                      11-06
                    Lack of Evidence of Review of the
      CBP-11-14     Drawback Auto / Deemed Liquidation                                                11-07
                    (D28) Alert Report
      CBP-11-15     Detection of Excessive Drawback Claims             A
      CBP-11-16     Deficiencies in the In-Bond Process                            C
                    Deficiencies in the Public Financial
      CBP-11-17
                    Disclosure Reporting Process
                                                                                                      11-08
                    Deficiencies in the Performance
      CBP-11-18
                    Management Program
                                                                                                      11-09
                    Weaknesses in Controls over Automated
      CBP-11-19
                    Journal Entries
                                                                                                      11-10
                    Weaknesses in Controls over the Bond
      CBP-11-20
                    Sufficiency Review Process
                                                                                                      11-11
                    Incorrect use of CBP Overtime Scheduling
      CBP-11-21
                    System (COSS) Codes
                                                                                                      11-12
                    Lack of Formal Process for Determining
      CBP-11-22
                    Required Supervisory Reviews
                                                                                                      11-13
                    Deficiencies over Monitoring of Ethics
      CBP-11-23
                    Requirements
                                                                                                      11-14
                    Incomplete Undelivered Orders (UDO)
      CBP-11-24
                    Quarterly Review
                                                                                                      11-15
                    Weaknesses Identified in the Bonded
      CBP-11-25     Warehouse and Foreign Trade Zone                               C
                    Processes and Procedures
                    Weaknesses in the Trade Compliance
      CBP-11-26                                                                    C
                    Measurement (TCM) Program
      CBP-11-27     Oversight of PP&E                                              B
                    Untimely Deobligation of UDOs and
      CBP-11-28
                    Monitoring of Period of Performance
                                                                                                      11-16
                    Weaknesses in CBP's Process Related to
      CBP-11-29     Recording Construction Percentage of                           B
                    Completion Amounts
                    Weaknesses in CBP's Payroll
      CBP-11-30
                    Reconciliation Process
                                                                                                      11-17
                    Insufficient Review of Manual Journal
      CBP-11-31
                    Entries
                                                                                                      11-18
                    Deficiencies in the Review of the
      CBP-11-32     Department of Labor (DOL) Chargeback                                              11-19
                    Report


*Disposition Legend:

FMC       Financial Management Comment


Cross-reference to the applicable sections of the Independent Auditors’ Report:

A         Drawback of Duties, Taxes, and Fees
B         Property, Plant, and Equipment
C         Entry Process


                                                               11
                                                                                             Appendix B
                                U.S. Customs and Border Protection
                                  Status of Prior Year Findings
                                       September 30, 2011




                                                                                FY11 Disposition
  NFR
                                      Description
 Number                                                                                  Repeat (FY11
                                                                             Closed
                                                                                          NFR No.)

CBP-10-01    Untimely Deobligation of Inactive Obligations                                CBP-11-24
             Lack of System Integration and Compliance with the U.S.
CBP-10-02    Standard General Ledger (USSGL) at the Transaction Level                     CBP-11-06
             Related to Inventory and Related Property, Net
             Automated Commercial System (ACS) Limitations – Review of
CBP-10-03    Prior Related Drawback Claims and Selectivity for Underlying                 CBP-11-04
             Consumption Entries
             ACS Deficiencies over Non-Entity Accounts Receivable and
CBP-10-04                                                                                 CBP-11-05
             CBP's Ability to Effectively Monitor Collection Actions
             ACS Deficiency over the Accumulation of Claims Against a
CBP-10-05                                                                                 CBP-11-03
             Drawback Bond

CBP-10-06    Number not used                                                       Not applicable

CBP-10-07    Improper Control Design of the "Failed Disbursements Report"      X

             Lack of Controls over Timely Processing of Goods and Services                CBP-11-10,
CBP-10-08
             Received                                                                     CBP-11-10b
             Weakness in CBP's Search for Unrecorded Accounts Payable
CBP-10-09                                                                      X
             Used to Support the Accounts Payable Estimate
             Weakness in the Monitoring and Review Process over the
CBP-10-10                                                                                 CBP-11-11
             Completion of Fines, Penalties, and Forfeiture (FP&F) Cases
             Weakness in the Review of Weekly / Monthly Entry Edit
CBP-10-11                                                                                 CBP-11-13
             Reports
             Weaknesses in CBP's Process Related to Asset Additions and
CBP-10-12    Classification of Property, Plant, and Equipment (PP&E)                      CBP-11-07
             Related Transactions
             Lack of Implementation of Controls over Determining Capital
CBP-10-13                                                                                 CBP-11-12
             Leases

CBP-10-14    Deficiencies in the In-Bond Process                                          CBP-11-16

CBP-10-15    Weaknesses in CBP's Process Related to Asset Disposals                       CBP-11-09

             Weaknesses in CBP's Process Related to Asset Disposals as of
CBP-10-15b                                                                                CBP-11-09b
             7/31/2010 and 9/30/2010
             Insufficient Retention Period for Documents that Support
CBP-10-16                                                                                 CBP-11-02
             Drawback Claims
             Lack of Formal Policies over Review of Importer Self-
CBP-10-17                                                                      X
             Assessment Annual Notification Letters

CBP-10-18    Failure to Complete Supervisory Review of Drawback Claims                    CBP-11-22



                                                    12

                                                                                            Appendix B
                                U.S. Customs and Border Protection
                                   Status of Prior Year Findings
                                        September 30, 2011




                                                                                  FY11 Disposition
  NFR
                                      Description
 Number                                                                                 Repeat (FY11
                                                                               Closed
                                                                                         NFR No.)

CBP-10-19    Certification of Refund and Drawback Payments                                CBP-11-01

CBP-10-20    Detection of Excessive Drawback Claims                                       CBP-11-15

CBP-10-21    Failure to Review the D28 Alert Report                                       CBP-11-14
             Weaknesses in Controls over Automated Journal Entries and
CBP-10-22    Misstatement of Liabilities Related to Injured Domestic                      CBP-11-19
             Industries
             Deficiencies in CBP’s Controls over the Application of Benefits
CBP-10-23    to Customs-Trade Partnership Against Terrorism (C-TPAT)             X
             Partners
             Weaknesses in CBP's Process Related to Recording
CBP-10-24                                                                                 CBP-11-29
             Construction Percentage of Completion Amounts
             Improper Settlement of Assets, Including Untimely
CBP-10-25                                                                                 CBP-11-08
             Capitalization of Assets from Construction-In-Progress (CIP)
             Improper Settlement of Assets, Including Untimely
CBP-10-25b   Capitalization of Assets from CIP as of 7/31/2010 and                       CBP-11-08b
             9/30/2010
CBP-10-26    Oversight of Financial Reporting Issues                             X

             Lack of Supporting Documentation for Intra-Departmental
CBP-10-27                                                                        X
             Eliminating Journal Entries Related to Operating Expenses
             Deficiencies in CBP's Controls over Calculating the Validity
CBP-10-28    and Collectability of Non-Entity Taxes, Duties, and Trade           X
             Receivables, net
CBP-10-29    Management Oversight of PP&E                                                 CBP-11-27

             Weaknesses Identified in the Bonded Warehouse and Foreign
CBP-10-30                                                                                 CBP-11-25
             Trade Zone Processes and Procedures

CBP-10-31    Inadequate Oversight of Trade Compliance Measurement                         CBP-11-26

             Lack of Segregation of Duties and Insufficient Review for
CBP-10-32                                                                                 CBP-11-31
             Manual Journal Entries

CBP-10-33    Deficiencies in CBP's Seized Inventory Process                      X
CBP-10-34    Improper Payment of Interest                                        X
             Insufficient Documentation of Statement on Auditing Standards
CBP-10-35                                                                        X
             (SAS) 70 review
             Weaknesses in CBP's Process Related to Asset Additions and
CBP-10-36                                                                                CBP-11-07b
             Classification of Transactions as of 7/31/2010 and 9/30/2010
CBP-10-39    Untimely Deobligation of Undelivered Orders (UDO)                            CBP-11-28
CBP-10-40    Deficiencies in CBP's Office of Air and Marine (OAM)                X

                                                    13

                                                                                          Appendix B
                                U.S. Customs and Border Protection
                                  Status of Prior Year Findings
                                       September 30, 2011




                                                                                FY11 Disposition
 NFR
                                      Description
Number                                                                                Repeat (FY11
                                                                             Closed
                                                                                       NFR No.)
            Inventory Process
CBP-10-41   Inability to Support the Injured Domestic Industries Liability     X




                                                    14

                                                                                                                 Appendix C
                               U.S. Customs and Border Protection
                Management Response to the Draft Management Letter
                              September 30, 2011




                                                                          1300 PcIlIl<.yl ... nlJ. Avenue l\.W
                                                                         w~s.hlnglon,    DC 20229



                                                                         u. s. Customs and
                                                                         Border Protection
    FEB t 7 2012
MEMORANDUM FOR:               AlUle L. Richards
                              Assistant Inspector General for Audits
                              Department of Homeland Securi ty

FROM:                         Deborah J. Schilling
                              Chief Financial Officer
                              U.S. Customs and Border Protection

SUBJECT:                      Management Response to Management Leiter Repon on CBP's
                              Fiscal Year 2011 Consol idated Financial Statements

On behalf of U.S. Customs and Border Protection (CB P), I am responding to the draft repon
tilled , Management Leller for us  Customs and Border Protection's Fiscal Year 2011
Consolidated Fillallcial Statements.

We have reviewed and concur with all weaknesses contained in the draft repon. CBP will
continue to work to resolve all auditor identified weaknesses.

CB p appreciates the opportun ity to review this year's report and looks forward to cont inuing our
professional aud iting relat ionship with YOllr office. If YOll have any questions or would like
additional infomlati on. please contact me at (202) 344-2300, or a member of your staff may
contact Ms. Jaye M. Williams, Executive Director, Financial Operations Directorate, at
(202) 344·2364.



    ~rd-9·~6
Deborah J. Schilling

Attachments




                                                     15

Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      U.S. Customs and Border Protection

                      Commissioner
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
